No. 20-639

 

IN THE

Supreme Court of the Anited States

 

CALVARY CHAPEL DAYTON VALLEY,
Petitioner,

i.

STEVE SISOLAK, in his official capacity as Governor of Nevada; AARON FORD, in his
official capacity as Attorney General of Nevada; FRANK HUNEWILL, in his official
capacity as Sheriff of Lyon County,

Respondents.

AFFIDAVIT OF SERVICE

I, John J. Bursch, a member of the Bar of this Court and counsel for Petitioner
hereby certify that on this 21st day of January, 2021, I caused a copy of the Reply
Brief of Petitioner to be served electronically on the following:

Aaron D. Ford, Attorney General Brian Hardy

Heidi Parry Stern Kathleen Wilde

Solicitor General Marquis Aurbach Coffing
Craig A. Newby bhardy@maclaw.com
Deputy Solicitor General kwilde@maclaw.com
HStern@ag.nv.gov

cnewby@ag.nv.gov

Executed on January 21, 2021.

 

LO buick

JOHN J. BURSCH

ALLIANCE DEFENDING FREEDOM
440 First Street NW, Suite 600
Washington, DC 20001

(202) 393-8690
jbursch@ADFlegal.org

Counsel for Petitioner

 
